GR-80-99-004
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented 
Policing Services
Lakeside Police Department
Lakeside, Colorado
GR-80-99-004
 
December 22, 1998
 
* * * * *
EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of a grant
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Lakeside Police Department, Lakeside, Colorado. The
Lakeside Police Department received a grant of $74,190 to hire or rehire one sworn police
officer under the Funding Accelerated for Smaller Towns (FAST) program. The purpose of the
additional officer is to enhance community policing efforts.
Budgeted funds for police services and the number of officer hours budgeted increased
each year since FY 1994, the year before the grant was initially awarded. Funds provided
under this grant were used to enhance the Lakeside Police Department's community policing
efforts. The number of officers performing community policing activities increased by the
number of officers funded under this grant.
However, we found the following weaknesses with regard to meeting the grant conditions:


Total program outlays were overstated by $2,654.


COPS monitoring and Financial Status Reports were not submitted timely.

These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix I.
#####